             OFFICE OF
      THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   THE SOCIAL SECURITY ADMINISTRATION’S
SIMPLIFIED DISABILITY INTERNET APPLICATION


       September 2011   A-14-11-21137




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      September 6, 2011                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Simplified Disability Internet Application
           (A-14-11-21137)


           OBJECTIVE

           Our objectives were to determine (1) the events that led the Social Security
           Administration (SSA) to find a software error in its Simplified Disability Internet
           Application, (2) what actions SSA took to correct the error, (3) the status of the cases
           impacted by the error, and (4) what actions the Agency implemented to ensure future
           development efforts do not contain similar errors.

           BACKGROUND
           Internet Adult Disability Report

           SSA’s Disability Insurance (DI) program provides monthly benefits to qualified
           individuals who are unable to work because of a medical condition that is expected to
           last at least 1 year or result in death. 1 DI applicants can file for benefits by visiting a
           field office or using the Internet. DI applicants use the Internet Disability Benefit
           Application to file electronically. The Disability Report-Adult (Form SSA-3368-BK) is
           required to file a claim. SSA automated the SSA-3368-BK, the Internet Adult Disability
           Report (i3368), in 2002. The i3368 allows applicants to provide medical and work
           history information through the Internet when filing for disability benefits.

           Field office personnel electronically transmit 2 i3368 data into the Electronic Disability
           Collection System (EDCS) 3 when they initiate work on a claim. SSA maintains the




           1
               The Social Security Act §§ 216(i) and 223, 42 U.S.C. §§ 416(i) and 423.
           2
               SSA uses the term “propagate” to mean electronically transmit data from the i3368 file into EDCS.
           3
               EDCS captures information recorded on paper forms; SSA-3368-BK is one of those forms.
Page 2 - The Commissioner


Simplified i3368 data for 90 days after transmission into EDCS. Field office staff
resolves any data discrepancies and forwards the claim to the State disability
determination services (DDS) for medical determination.

Simplified i3368

According to SSA, as part of its Disability Direct Initiative, the Agency revised the
i3368 to improve the quality of information received and reduce the amount of time for
both the public and Agency employees to complete the report. SSA called this new
Internet application the Simplified i3368. The Simplified i3368 reduced the amount of
detailed information required and tailored the form to accommodate individual
circumstances. In addition, the Simplified i3368 included new data fields to be stored
and transmitted into EDCS. SSA had a limited Simplified i3368 implementation in
December 2009 and a nationwide implementation in January 2010.

To achieve our objective, we reviewed Federal standards, guidelines, and SSA’s
procedures for systems development. 4 We obtained and reviewed information related
to the i3368 software error and actions taken to resolve the error, as well as the
i3368 and the Simplified i3368 systems documentation. We validated that the system
was corrected by checking various data input scenarios in the Simplified i3368 and
EDCS. For our scope and methodology, see Appendix B.

RESULTS OF REVIEW
In December 2009, SSA released the Simplified i3368 Internet application for public
use. However, the Agency identified a software error in the Internet application that
potentially impacted approximately 47,300 disability claims. As of July 2010, SSA had
denied 12,900 of the approximately 47,300 disability claims. The Agency fixed the
software error and released the updated version of the Simplified i3368 in May 2010.
Based on additional medical evidence, SSA made a substantive change to the disability
determinations for 94 claims. 5 To ensure future i3368 application releases do not
contain a software error, the Agency changed the i3368 and EDCS testing procedures.
For example, SSA staff began testing multiple data input scenarios where they entered
different combinations of data and transmitted them into EDCS.

Discovering and Correcting the Error

According to SSA, an applicant submitted a claim through the Simplified i3368 on
February 25, 2010. On March 19, 2010, the applicant contacted SSA and advised the
4
 Government Accountability Office, GAO-09-232G, Federal Information Systems Control Audit Manual
February 2, 2009; National Institute of Standards and Technology Special Publication 800-53,
Recommended Security Controls for Federal Information Systems and Organizations, August 2009; and
SSA, Project Resource Guide, PRIDE.
5
 SSA changed the decision for 94 claims to a more favorable decision. Of the 94 claims, SSA allowed
83. The remaining 11 claims were originally favorable, but upon further review, SSA revised the disability
onset to an earlier date. These changes entitled the claimants to additional benefits.
Page 3 - The Commissioner


Agency that the applicant entered 14 doctors; however, when field office staff reviewed
the data in EDCS, only 2 doctors were listed. At that time, SSA could not determine
why information for all 14 doctors did not transmit into EDCS and believed the problem
was due to erroneous keying of data.

From mid-April to mid-May 2010, SSA continued receiving inquiries about claims
entered through the Simplified i3368. The Agency determined these claims were also
missing doctor information. In mid-May 2010, SSA decided to reexamine the
Simplified i3368.

The Agency determined the problem occurred when an applicant did not enter a
doctor’s name. The i3368 has fields for the doctor’s first and last names, and a field for
the office name or clinic (see below). In the original i3368, an applicant had to enter
information for the doctor’s first name or last name. The Simplified i3368 allows the
doctor’s name field to be blank as long as the applicant entered information in the office
name or clinic field. SSA found that, when users entered only the office name/clinic,
and not a doctor’s name, the information related to that doctor and all subsequent
doctors was not transmitted into EDCS.

                             Simplified i3368 Doctor Screen




The Agency reported that on May 21, 2010, it had fixed the software error and had
confirmed resolution of the issue through testing. On May 31, 2010, SSA released an
updated version of the Simplified i3368. During our review, we validated six scenarios
in the test environment by entering information into the Simplified i3368 and transmitting
the claims to EDCS. We also selected a sample of new claims in the production
environment that had blank doctor’s names and verified that the doctors entered in the
Simplified i3368 transmitted correctly into EDCS. We found no discrepancies.
Page 4 - The Commissioner


Status of Cases Affected by the Error

During the 5.5 months between the limited release of the Simplified i3368
(December 2009) and the Agency’s implementation of a systems fix (May 2010),
47,343 adult disability claims were entered through the Simplified i3368. 6 SSA
categorized these potentially affected cases into two groups, or “buckets,” based on the
availability of data in the i3368 archives. For Bucket 1 cases,7 SSA would have to
contact the claimant or representative to determine whether any doctors’ information
was missing. For Bucket 2 cases,8 SSA compared the Simplified i3368 archive data to
the data transmitted into EDCS. SSA entered any missing doctor information into
EDCS.

As of May 2010, SSA had denied 12,875 of the 47,343 disability claims. For the
purpose of our review, we focused on the denied claims, which represented the claims
most likely impacted by the systems error. SSA transferred claims9 that had missing
doctors’ information to the adjudicating component for additional development and
determination. According to SSA, the review of new medical evidence led the Agency
to reverse its original decision on 94 claims. These reversals account for about
0.2 percent of the total claims entered through the Simplified i3368 between
December 2009 and May 2010.

Ensuring Future Development Efforts Did Not Contain Similar Errors

According to SSA, the underlying cause for the error was that the i3368 no longer
required that applicants enter a doctor’s name. During the design of the Simplified
i3368, SSA did not realize that changing this requirement affected the data transmission
into EDCS.

Since the Simplified i3368 software error discovery, SSA began testing multiple data
input scenarios. SSA stated that it designed additional tests to capture all possible
errors. The Agency entered different data combinations and transmitted these
combinations into EDCS. However, SSA did not see a need to change its systems
development procedures or policies so that this practice would become an integral part
of future development efforts.



6
 During those 5.5 months, applicants filed 3,223,047 claims with SSA. The impacted claims represent
1.5 percent of those claims filed.
7
 Bucket 1 cases were claims submitted through the Simplified i3368 between December 12, 2009 and
February 23, 2010, and no archive data existed.
8
 Bucket 2 cases were claims submitted through the Simplified i3368 between February 24 and
May 31, 2010, and archive data existed.
9
 These claims include claims pending in the field office (initial claims and appeals), denied claims,
partially favorable claims, and new claims filed that were no longer within the appeal period.
Page 5 - The Commissioner


KEY CONCERNS THAT MAY AFFECT FUTURE DEVELOPMENT EFFORTS

There are two key concerns that could affect future development efforts. First, SSA
should ensure proper validation/reconciliation of data transmitted between two systems.
Second, SSA should validate systems before release. We provide details of our
concerns below.

Lack of Validation Controls Between i3368 and EDCS

We determined SSA did not have the proper interface 10 processing controls to ensure
the doctor information entered into the Simplified i3368 transmitted properly to EDCS.
The Federal Information Systems Control Audit Manual (FISCAM) 11 indicates controls
for interface processing are necessary to ensure data transfers from one system to
another system completely, accurately, and timely. Accordingly, SSA should implement
controls to ensure data are accurately processed through the interface and that no data
are added, lost, or altered during the process. The Agency should design both the
application that is the source of the data and the target application that receives the
data with balancing controls such as control totals, record counts, batching run totals, or
other data logging techniques. The Simplified i3368 interface to EDCS did not have
these controls.

The software error created an additional workload for staff and applicants. In certain
situations, SSA had to re-contact applicants to verify doctor information. This required
additional time on the part of the applicants, field offices, DDSs, and the other
adjudicating components. In turn, the applicant had to spend time answering the same
questions submitted on the Simplified i3368. Finally, adjudicating components had to
spend time on additional development for the previously denied claims. The Agency
indicated that the new workload created by the software error had minimal impact on
staff and applicants since re-contacting applicants is often part of the normal claim
processing.

Therefore, with future application releases, we recommend SSA develop and implement
an interface processing control strategy. The Agency should use this strategy to
confirm that all data entered by the user in one system transmit completely to the
intended system(s).

Lack of Comprehensive Validation Testing

We found SSA did not appropriately validate how the December 2009 changes to the
Simplified i3368 impacted EDCS. The Agency stated that for the Simplified i3368
release, it executed over 8,000 tests, which represented numerous scenarios.

10
  Interfaces are the structured exchange of data between two applications. Interface processing controls
govern the extraction, transformation, and loading of data between two applications.
11
 Government Accountability Office, GAO-09-232G, FISCAM, February 2, 2009, Section 4.3 Interface
Controls (pp. 432-433).
Page 6 - The Commissioner


Additionally, SSA stated the data used to test the transmission of data from the i3368 to
EDCS maximized the use of each field. However, the Agency did not test whether a
blank field in the Simplified i3368 affected the transmission of data to EDCS.

FISCAM requires “. . . a comprehensive set of test transactions and data be developed
that represents the various activities and conditions encountered in processing.” Best
business practice12 recommends that when building test data, an agency should create
processing conditions that accurately represent system changes, such as allowing the
doctor’s name to be blank, as well as unexpected conditions. If data input requirements
are added, modified, or removed from an application, the agency should create test
data to reflect these changes. While it may not be possible to test every conceivable
variation, the test data should use transactions that have a wide range of valid and
invalid input data—valid data for testing the expected and invalid data for testing
application controls.

If SSA performs data tests that do not reflect real life situations, the Agency risks
releasing future enhancements or interfaces with errors. We recommend SSA use
comprehensive test data that reflects the system requirement changes to validate the
application and all associated systems.

CONCLUSION AND RECOMMENDATIONS
Based on our validation of different scenarios in the test environment and verification of
new claims with blank doctor’s names, we found that claims transmitted correctly into
EDCS. However, we believe that for future Internet software releases, SSA should
build interface controls to ensure data entered transmits completely to the appropriate
SSA systems and implement more stringent test requirements to validate changes in its
systems.

Therefore, we recommend SSA:

1. Develop and implement an interface processing control strategy to confirm that all
   data entered by the user in one system transmits completely to the intended
   system(s).

2. Use comprehensive test data that reflects system requirement changes to validate
   the application and all associated systems.

AGENCY COMMENTS
SSA agreed with both recommendations. See Appendix C for the Agency’s comments.



12                                                                  nd
  William Perry, Effective Methods for Software Testing (p. 563, 2 edition, 2000). It should be noted
that the author of this authority is founder and executive director of the Quality Assurance Institute, which
sponsors certification programs for software testing.
Page 7 - The Commissioner


OIG RESPONSE
Although SSA agreed with Recommendation 1, it did not address how it will design the
Simplified i3368 and EDCS to implement interface processing controls. The Agency
should design both the application that is the source of the data and the target
application that receives the data with balancing controls. The Agency stated that it
does end-to-end testing; 13 however, end-to-end testing is not an interface processing
control. Examples of interface processing controls are control totals, record counts,
batching run totals, or other data logging techniques.

Further, SSA agreed with Recommendation 2, but did not address how it will ensure the
use of comprehensive test data will incorporate all system requirement changes.
Performing end-to-end testing does not ensure that the test data includes conditions
that accurately represent the system changes made.




                                                 Patrick P. O’Carroll, Jr.




13
   The Agency stated that end-to-end testing involves testing of a complete application environment in a
situation that mimics real-world use.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
DDS      Disability Determination Services
DI       Disability Insurance
EDCS     Electronic Disability Collect System
FISCAM   Federal Information Security Control Audit Manual
i3368    Internet Adult Disability Report
OIG      Office of the Inspector General
SSA      Social Security Administration
U.S.C.   United States Code
                                                                                Appendix B

Scope and Methodology
To accomplish our objectives, we:

• Reviewed Federal laws, standards, and guidelines. 1
• Reviewed the Social Security Administration’s (SSA) policies and procedures for
  system development. 2
• Obtained information from SSA on the discovery of the software error, actions taken
  to correct the software error, and actions taken to prevent recurrence.
• Reviewed SSA’s Intranet site that monitors the status of impacted claims.
• Reviewed SSA’s system documentation for the December 2009 change to the i3368.
• Interviewed personnel from SSA’s Offices of Operations and Systems.
• Ensured system correction by (1) validating six scenarios in the Simplified i3368 test
  environment transmitted to the Electronic Disability Collect System (EDCS) test
  environment, and (2) verifying 45 sample claims in the production environment had
  the same doctors entered in Simplified i3368 transmitted appropriately to EDCS.

We performed our evaluation at SSA’s Headquarters in Baltimore, Maryland, between
October 2010 and April 2011. The entities reviewed were the Offices of the Deputy
Commissioners for Operations and Systems. We conducted our review in accordance
with the Council of the Inspectors General on Integrity and Efficiency’s Quality
Standards for Inspection and Evaluation.

We relied primarily on the disability claims data from the i3368 and EDCS to complete
our review and determined that the data were sufficiently reliable to meet our audit
objectives.




1
 The Social Security Act §§ 216(i) and 223, 42 U.S.C. §§ 416(i) and 423, Government Accountability
Office, GAO-09-232G, Federal Information Systems Control Audit Manual, February 2, 2009, and
National Institute of Standards and Technology Special Publication 800-53, Recommended Security
Controls for Federal Information Systems and Organizations, August 2009.
2
    SSA, Project Resource Guide, PRIDE.
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      August 4, 2011                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration’s Simplified
           Disability Internet Application” (A-14-11-21137)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S SIMPLIFIED DISABILITY
INTERNET APPLICATION” (A-14-11-21137)


We offer the following responses to your recommendations.

Recommendation 1

Develop and implement an interface processing control strategy to confirm that all data entered
by the user in one system transmits completely to the intended system.

Response

We agree. However, as OIG noted in its report, the Office of System (OS) identified the
software error and corrected it in May 2010, prior to OIG initiating this audit. During the
validation process, OS performs end-to-end testing to ensure data is accurately transmitted
between two or more systems.

Recommendation 2

Use comprehensive test data that reflects system requirement changes to validate the application
and all associated systems.

Response

We agree. Please see response to recommendation one. OS performed end-to-end testing to
ensure data entered into the Simplified 3368 application transmitted correctly to the Electronic
Disability Collect system.




                                               C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Brian Karpe, Director, Information Technology Audit Division

   Mary Ellen Moyer, Audit Manager

Acknowledgments

In addition to those named above:

   Jan Kowalewski, Auditor in Charge

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-11-21137.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
